No. 20A96
IN THE

Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY ex. rel.
ATTORNEY GENERAL DANIEL CAMERON
Applicants,
v.
ANDREW BESHEAR, in his official capacity as Governor of Kentucky
Respondent
CERTIFICATE OF SERVICE
I, Thomas Bruns, a member of the Bar of this Court and counsel for the amicus on the
accompanying Motion by Kentucky Religious Schools and Parents to (1) File Amicus Curiae
Brief, with Attached Brief in Support of Applicant, (2) To do so in an unbound format in 8 ½-by11 inch paper, (3) to do so without ten days advance notice to the parties, certify that on this 2
day of December, 2020, I caused three copies of this Motion and amicus brief to be served via
next day service and email upon:
Amy Cubbage
S. Travis Mayo
Marc Farris
Taylor Payne
Office of the Governor
700 Capitol Building, Ste. 106
Frankfort, KY 40601
(502) 564-2611
Amy.Cubbage@ky.gov
Travis.Mayo@ky.gov
Marc.Farris@ky.gov
Taylor.Payne@ky.gov
Counsel for Respondent Andrew Beshear

Kelly J. Shackelford
Jeffrey C. Mateer
Hiram Sasser
David J. Hacker
Justin Butterfield
Roger Byron
FIRST LIBERTY INSTITUTE
2001 W. Plano Pkwy, Ste. 1600
Plano, TX 75075
(469) 440-7589
kshackelford@firstliberty.org
jmateer@firstliberty.org
hsasser@firstliberty.org
dhacker@firstliberty.org
Matthew T. Martens
jbutterfield@firstliberty.org
Kevin Gallaher
rbyron@firstliberty.org
WILMER CUTLER PICKERING HALE AND DORR LLP
Counsel for Applicant
1875 Pennsylvania Ave, NW
Danville Baptist Church
Washington, DC 20006

(202) 663-6921
Matthew.Martens@wilmerhale.com
Kevin.Gallagher@wilmerhale.com
Counsel for Applicant

Barry Dunn
S. Chad Meredith
Matthew F. Kuhn
Carmine Iaccarino
Brett Nolan
OFFICE OF THE KENTUCKY
ATTORNEY GENERAL
700 Capitol Avenue, Ste. 118
Frankfort, KY 40601
(502) 696-5300
Barry.dunn@ky.gov
Counsel for Applicant
Commonwealth of Kentucky

I further certify that all parties required to be served have been served.

/s/Thomas Bruns____________
Thomas Bruns (KBA 84985)
Counsel of Record
Bruns Connell Vollmar & Armstrong
4750 Ashwood Drive, STE 200
513-312-9890
tbruns@bcvalaw.com
Counsel for Amicus Curiae

